TN

C@OCKLE

Legal Briefs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214 E.
St. 1923

1-800-225-6964 Web Site
(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-247

CITY OF BOISE, IDAHO,
Petitioner,
v.
ROBERT MARTIN, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE PEOPLE
CONCERN AND WEINGART CENTER ASSOCIATION AS AMICI CURIAE SUPPORTING
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 4854 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 25th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska . LS ,,
My Commission Expires Nov 24, 2020 A

Notary Public Affiant

 

 

38642
